HHS/OIG Audit Report:"Audit of Costs Incurred by The National Association of Protection&Advocacy Inc. During Fiscal Year 2000,"(A-03-01-00219)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Costs Incurred by the National Association of Protection & Advocacy Inc. During Fiscal Year 2000," (A-03-01-00219)
September 28, 2001
Complete Text of Report is available in PDF format (1.00 MB). Copies can also be obtained by contacting
the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of our review was to determine if costs incurred by The National Association of Protection & Advocacy
Systems, Inc. (NAPAS) during the period September 25, 1999 through September 24, 2000 were claimed in accordance with Federal
requirements.  During the contract period, NAPAS received payments of $1,999,518.  Our review determined that
$12,091 of the cost reimbursed by the Administration on Developmental Disabilities (ADD) was unsupported or unallowable.  In
addition, NAPAS could not document that funds received for The Centers for Medicare and Medicaid Services (CMS) project
were used for their intended purpose.  The NAPAS could not account for $123,280 of the $200,000 that it retained to
administer the CMS Project.  In this regard, we found that NAPAS was not required, by ADD in its contract, to separately
account for the CMS funds or the other appropriations.  We recommend that NAPAS: (1) refund $12,091 of unsupported
or unallowable cost charged to the ADD contract; (2) establish procedures to account for each Federal appropriation separately;
and (3) refund to ADD $123,280 in unsupported CMS project funds.